2311 Douglas Street

Omaha, Nebraska68102-1214

Est. i923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com
Web Site
www.cocklelegalbriefs.com

No. 19-1074
CELGENE CORPORATION,
Petitioner,
v.
LAURA A. PETER, DEPUTY UNDER SECRETARY
OF COMMERCE FOR INTELLECTUAL PROPERTY
AND DEPUTY DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 31st day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE INTELLECTUAL PROPERTY LAW
PROFESSORS IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:
SEE ATTACHED
To be filed for:
GREGORY DOLIN
Associate Professor of Law
UNIVERSITY OF BALTIMORE
SCHOOL OF LAW
1420 N. Charles Street
Baltimore, Maryland 21201
(410) 837-4610
gdolin@ubalt.edu

AARON FRANKEL
Counsel ofRecord
JOHN M. MCNULTY
CHASE H. MECHANICK
KRAMER LEVIN NAFTALIS
& FRANKEL LLP
1177 Avenue of the Americas
New York, New York 10036
(212) 715-7793
afrankel@kramerlevin.com
Attorneys for Amici Curiae
Intellectual Property Law Professors

Subscribed and sworn to before me this 3 lst day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Attorneys for Petitioner
Gregory Andrew Castanias
Counsel of Record

Jones Day
51 Louisiana Ave., NW
Washington, DC 20001

(202) 879-3639

gcastanias@jonesday.com
Party name: Celgene Corporation

Attorneys for Respondent
Noel J. Francisco
Counsel of Record

Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Party name: Peter, Laura A.

202-514-2217

